                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 1, 2010                                               Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The
           Social Security Administration’s Use of Limitation on Administrative Expenses
        Funds (A-15-10-21085)


        The attached final quick response evaluation presents the results of our review. Our
        objective was to review aspects of the Social Security Administration’s use of its
        available administrative funds.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
   QUICK RESPONSE
    EVALUATION
The Social Security Administration’s
       Use of Limitation on
  Administrative Expenses Funds

            A-15-10-21085




            September 2010
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                             Background
OBJECTIVE
The objective of this evaluation was to review aspects of the Social Security
Administration’s (SSA) use of its available administrative funds.

BACKGROUND
Each year, SSA prepares a budget justification 1 to request administrative funds to
process growing workloads, reduce backlogs, support and maintain staff, and meet
customer service expectations. The Fiscal Year (FY) 2010 justification added that the
recent economic downturn had created an unprecedented rise in initial claims receipts
and exacerbated the challenges the Agency was already facing (for example, hearings
backlog and improper payments). While the congressionally approved FY 2009
Omnibus Appropriations Act 2 and the American Recovery and Reinvestment Act of
2009 3 provided additional resources to target the Agency’s growing workloads, SSA
continues to assert more resources are needed to improve service to the public.

Congress authorizes an annual appropriation for the administrative costs SSA incurs in
fulfilling the terms of the Social Security Act. These funds are appropriated under the
Limitation on Administrative Expenses (LAE) account. The LAE appropriation language
provides SSA with the funds needed to administer the Old-Age and Survivors
Insurance, Disability Insurance (DI), and Supplemental Security Income (SSI) programs
and support the Centers for Medicare and Medicaid Services in administering its
programs. The functions SSA performs include issuing Social Security numbers,
maintaining lifetime earnings records, processing initial claims for cash benefits,
processing post-entitlement actions,4 and adjudicating hearings and appeals cases.




1
    Social Security Administration Justification of Estimates for Appropriations Committees.
2
    Pub. L. No. 111-8, Division F, Title IV.
3
    Pub. L. No. 111-5, Division A, Title VIII.
4
  Post-entitlement actions are services after individuals become eligible for benefits. These services
include issuing emergency payments, recomputing payment amounts, and processing address and other
status changes.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                             1
Public Law 5 surrounding the Agency’s annual administrative expenses appropriation
provides that “… unobligated 6 balances of funds provided at the end of each fiscal year
not needed for the current fiscal year shall remain available until expended to invest in
the Social Security Administration information technology and telecommunications
hardware and software infrastructure.” This provision allows for the transfer of millions
of dollars from the current FY annual LAE appropriation to the no-year appropriated
Information Technology Systems (ITS) funds for non-payroll automation and
telecommunications investment costs (see Table 1).

SSA faces challenges in closing the gap between limited resources and increasing
workloads. According to SSA’s Fiscal Year 2009 Justification of Estimates for
Appropriations Committees, limited resources, new responsibilities, and increased
workloads are threatening the Agency’s reputation for protecting the integrity of the
Social Security programs and will ultimately have a dramatic effect on millions of
Americans in terms of service. The unprecedented growth in SSA workloads makes it
necessary that SSA effectively utilize technology. However, while enhanced automation
is critical to SSA achieving its long-term goals, program integrity workloads help ensure
program dollars are being spent wisely and according to the intent of the law.

Program integrity workloads include continuing disability reviews and SSI non-disability
redeterminations. SSA’s program integrity workloads improve accuracy of benefit
programs, protect the integrity of the Trust Funds, and ensure taxpayer money is
properly used. These program integrity efforts ensure that individuals receiving benefits
continue to be eligible and are being paid the correct amount.

In addition to program integrity workloads, investing in additional funds to process initial
disability claims should help to reduce the disability backlog.




5
 For Fiscal Years (FY) 2001 through 2009, LAE amounts were appropriated under Public Laws – Pub. L.
No. 106-554 (Appendix A, Title IV), Pub. L. No. 107-116 (Title IV), Pub. L. No. 108-7 (Division G, Title IV),
Pub. L. No. 108-199 (Division E, Title IV), Pub. L. No. 108-447 (Division F, Title IV), Pub. L. No. 109-149
(Title IV), Pub. L. No. 110-5 (Division B, Title II), Pub. L. No. 110-161 (Division G, Title IV), and Pub. L.
No. 111-8 (Division F, Title IV).
6
 According to Office of Management and Budget (OMB) Circular No. A-11, Preparation, Submission, and
Execution of the Budget, unobligated balance means the cumulative amount of budget authority that is
not obligated and that remains available for obligation under law.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                    2
                                                              Results of Review
To perform our review, we obtained data on the administrative funds SSA had available
in the LAE account. We found that SSA transferred $528 million of its annual
unobligated LAE funds to LAE ITS no-year funds from FYs 2004 through 2008 7 and
invested $2,845 million in ITS projects and infrastructure during the same period (see
Table 1 and Appendix C).

                                                  Table 1
                                 LAE ITS Transfers and Remaining Funds
                          After Assumed $25 Million Used to Process Workloads
                                              ($ in millions)

               Annual           Actual         Remaining          Total      Assume            Minimum
                LAE            Amount            Amount         Amount      $25 Million     Amount Still
              Balance      Transferred to       Available      Available     Used for       Available to
              Available       ITS from        for Transfer    for LAE ITS   Workloads      Transfer to ITS
                                                                                      10
      FY      When the      Annual LAE            (As of        Transfer    Each Year      Assuming $25
                                                          9
                 FY             (As of         9/30/2009)        (As of                    Million Used for
                     8
               Ended         9/30/2009)                        9/30/2009)                    Workloads
     2004           $91              $136                $5          $141          $(25)              $116
     2005          $176              $236               $43          $279          $(25)              $254
     2006           $93                $96              $51          $147          $(25)              $122
     2007          $119                $60              $85          $145          $(25)              $120
     2008          $119                 $0             $130          $130          $(25)              $105
                                         11
     Total         $598             $528               $314          $842         $(125)              $717

7
  The LAE appropriation is apportioned by OMB and documented in the Standard Form 132,
Apportionment and Reapportionment Schedule, in categories that include, but are not limited to,
Administrative Expenses, ITS, Construction, and Disability Determination Services. Only the unobligated
LAE Administrative Expenses and unobligated LAE ITS funds that have been apportioned and available
on September 30 are transferred to the no-year LAE ITS appropriation. Therefore, for purposes of this
report, Administrative Expenses and ITS will only be used when referring to transferring unobligated
balances.
8
 These amounts represent the unobligated amount that was available for transfer at the end of each FY
before any adjustments. The adjustments accrue after the close of the FY. For example, $141 million
was ultimately available for transfer as of September 30, 2009, but the full amount was not available on
September 30, 2004. On September 30, 2004, only $91 million went unspent, and at that point in time
was the maximum considered available for transfer.

9
 These amounts represent the remaining amount of annual LAE funds that are available for transfer.
FY 2004 is the only year that funds have exceeded the 5-year period for authority to disburse and was
canceled. For FYs 2005 through 2009, funds may still be transferred to no-year LAE ITS or used in the
event adjustments need to be made to obligations or prior-year obligations need to be liquidated.
10
  This provides an illustration of the amount of funds that would have been available had $25 million
been committed in the annual LAE Administrative Expenses allotment to process additional SSA
workloads each year. The amount would be obligated during the FY and consequently decrease the
unobligated amount available for transfer at the end of each FY.
11
     Refer to Table 2 for detailed transfer amounts.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                   3
Based on our review of SSA’s transfer of unobligated annual funds, investment in ITS,
and available administrative funds for SSA workloads and ITS investments, the Agency
had the opportunity to use more of its annual LAE funds to reduce the disability backlog
and invest in program integrity workloads and thereby reduce the amounts of
transferred unobligated balances.

TRANSFERS OF UNOBLIGATED ANNUAL FUNDS

SSA’s budget for ITS costs includes both annual and no-year funds. The annual funds
are apportioned by OMB as part of the enacted annual appropriation. The no-year
funds are apportioned by OMB each year and include the carryover of the unobligated
no-year balance at the end of the previous FY, recoveries of prior-year obligations
realized in the current FY, and transfers of unobligated balances from the five previous
LAE annual appropriations. For example, in FY 2009, transfers could be made from
FYs 2004 through 2008. 12 Federal appropriations law allows an appropriation account
to remain open for 5 years allowing for late adjustments and payments. At the end of
the 5-year period, the account is closed and the funding is no longer available, including
transfers to ITS.

The language included in the annual LAE appropriation does not automatically
authorize the transfer of funds to ITS. Per the Agency,

     We must justify our plans for doing so with the Office of Management and Budget
     (OMB), and we may only transfer and spend money to the extent that OMB has given
     us its formal approval through the apportionment process. OMB makes its decisions
     after examining our entire ITS budget and reviewing our submissions of the Agency’s
     IT Investment Portfolio (Exhibit 53s – required by OMB Circular No. A-11), and the
     Capital Asset Plan and Business Case Summary (Exhibit 300 – also required by OMB
     No. A-11). Transfer authority does not increase the ITS budget. To the contrary, it
     decreases the amount of current year funding we need to implement the approved
     budget plan. We explicitly depend on both transfer authority and current year IT
     funding to maintain our operating capabilities and to invest in the future.

Prior year LAE funds are available for transfer only to the extent they were not obligated
in the FY and will not be needed to cover legitimate upward adjustments to contracts or
other spending actions chargeable to that year. The amounts transferred to the no-year
LAE account are on an ‘as needed’ basis to provide the approved level of funding for
SSA’s information technology (IT) efforts. The transfers are made late in the current
FY and the funds are intended to be carried over to the next FY. For example, the
$170 million transferred into FY 2009 was not used in FY 2009 but became part of the
funds carried over into FY 2010.


12
   Each year, SSA submits a request for apportionment to OMB to use annual and no-year funds. The
no-year apportionment does not include appropriated funds from the appropriations law but amounts that
have been reapportioned from the prior year. The annually appropriated unobligated balances available
at year-end to be transferred to the no-year appropriation are included in the request and subject to OMB
approval.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                4
Table 2 illustrates the total amount of funds that was transferred from the LAE annual
appropriation to the LAE ITS no-year appropriation in FYs 2005 through 2009.

                                                   Table 2:
                                                                    13
                                       ITS Transfers by Fiscal Year
                                               ($ in millions)
                                                                                      14
    Annual                           Funds Transferred to No-Year Appropriation
 Appropriation                                                                                        15
Transferred from        FY 2005      FY 2006        FY 2007        FY 2008       FY 2009      Total

       FY 2004            $41          $10            $25            $20              $40      $136
       FY 2005                        $102            $96            $28              $10      $236
       FY 2006                                                       $36              $60      $96
       FY 2007                                                                        $60      $60
                 16
       FY 2008
         Total            $41         $112            $121           $84              $170     $528


SSA’s INVESTMENT IN ITS

The Agency uses the current year ITS annual appropriation and LAE ITS transfers to
support its IT operations. Annual appropriated ITS funds are obligated before ITS no-
year funds are used for ITS efforts. LAE ITS resources are used either to invest in
infrastructure improvements or for current and future projects. The Agency uses
between 75 and 80 percent of its ITS resources for infrastructure investments. SSA’s IT
infrastructure improvements modernize the technological foundation for service delivery
in the 21st century to provide a stable, secure system with continuous availability. 17 IT
project improvements are intended to result in improved productivity and business
processes.

IT investment management focuses on selecting, managing, and evaluating
investments that minimize risks while maximizing the return on investment. However,
resources used for ITS have not always provided a proven positive return on investment
to the Agency. Furthermore, the Agency has been unable to demonstrate that ITS

13
  Information obtained from Standard Form 132: Apportionment and Reapportionment Schedule,
Justification for LAE (FYs 2004-2008).
14
  The base year for the FY annual appropriated funds transferred is 2004. Our review only included
annual appropriations that had not been canceled as of FY 2009. Therefore, our base year is 2004,
which was not available for transfer until FY 2005.
15
  The total amount of ITS transfers by FY includes the unobligated amounts available at the end of each
FY and any adjustments that accrued after the close of the FY. See Table 1 for the unobligated amounts
available at the end of each FY.

16
     FY 2008 annually appropriated funds had not been transferred as of April 2010.
17
     SSA’s FY 2010 Budget Justification.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                   5
investments achieve their intended results and address the Agency’s strategic goals,
objectives, and mission, despite the continued significant ITS investment. For example,
from FYs 2004 through 2008, SSA had $2,913 million available for IT investment and, of
that amount, $2,845 million was obligated for ITS investment. Both SSA’s Office of the
Inspector General (OIG) and Government Accountability Office (GAO) reports have
revealed that SSA could improve on investment management, which includes the
selection process and post-implementation review of IT projects. 18 Specifically, GAO
stated that, “. . . until it establishes oversight of all investments and fully defines policies
and procedures, SSA risks not being able to select and control these investments
consistently and completely, thus increasing the chance that investment will not meet
mission needs in the most cost-effective and efficient manner.” 19 SSA’s improvement of
investment management will result in a more cost-effective and efficient use of LAE
resources.

During our review, we asked SSA to provide examples of ITS projects that met or did
not meet their intended return on investment targets as well as achieved the Agency’s
goals. While SSA provided examples of ITS Investments that either met or did not meet
their intended results, they were unable to show the return on investment where actual
and expected results were compared. For example, the Agency provided the
Telephone Systems Replacement Project (TSRP) as an investment that met the
intended results. TSRP will replace the existing digital telephone switching system(s)
infrastructure with voice/data telephone equipment/switching systems. TSRP provides
an opportunity to converge the two independent networks (data/voice) and concurrently
decrease telephone infrastructure maintenance and operations. Since its initiation, the
Agency has spent $133 million on TSRP but was unable to show there was a financial
return on investment with a comparison of the actual and expected results. Additionally,
SSA provided examples of two ITS investments that were terminated because they did
not meet the intended results, namely the Time Allocation System (TAS) and ePulling.
Table 3 provides information about the two terminated SSA ITS projects and the
amount of resources used during the life span of the projects.




18
  SSA, OIG, Social Security Administration’s Management of Information Technology Projects
(A-14-07-17099) issued July 2009 stated that “IT investment results are not independently verified after
project completion to ensure that the functionality and cost savings were ultimately achieved (SSA OIG,
A-14-07-17099, supra at page 3).” GAO (GAO-08-1020), Information Technology: SSA Has Taken Key
Steps for Managing Its Investments, but Needs to Strengthen Oversight and Fully Define Policies and
Procedures, recommended SSA strengthen the investment board’s role and responsibilities, improving
project oversight for all major investments, defining project-level and portfolio-level policies and
procedures for effective investment management, and improving post implementation reviews
(GAO-08-1020 supra at GAO Highlights page).
19
     GAO-08-1020, supra at Summary page.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                   6
                                                    Table 3:
                                   Examples of Terminated ITS Projects
                                                                                               Resources
                                                                                              Spent on ITS
Name of                                                                                        Investment
Project                    Description                         Reason for Termination         ($ in millions)

     TAS      TAS was proposed as a replacement         The Office of Quality Performance     $35.1 Million
              for District Office Work Sampling         (OQP) completed a TAS Time Study.
              (DOWS), the current time                  The physical regional observations
              measurement system for field offices      took place on March 2 and 3, 2009.
              and teleservice centers. DOWS uses        OQP completed its analysis of the
              sampling counts for each workload         Time Study and presented the
              category and is regarded as               results to the Associate
              statistically valid at the end of a FY.   Commissioners on July 10, 2009 and
              TAS uses a set of business rules to       the Deputy Commissioners on
              determine the amount of time spent        August 13, 2009. The Deputy
              on each workload. Information is          Commissioners decided that, at that
              available by person and day and is        time, the Agency would not move
              based on the computer screens, or         forward to use the TAS for budget
              combination of screens, that are          formulation and execution purposes.
              accessed.
 ePulling     ePulling was an Office of Disability      ePulling increased the case            $4.6 Million
              Adjudication and Review initiative and    preparation time and was
                                                                                     20
              was expected to increase the              discontinued in August 2009.
              efficiency of the electronic folder
              preparation process and reduce the
              time it takes to prepare a case for
              hearing.


The ITS budget is managed by the Office of the Chief Information Officer (OCIO). The
OCIO provides advice to the Commissioner and Deputy Commissioner of SSA to
ensure IT is acquired and information resources are managed in compliance with the
Clinger-Cohen Act. 21 The OCIO also makes final IT budget recommendations to the
Commissioner. The Deputy Commissioner for Systems is responsible for monitoring all
development and operations projects included in the Agency IT plan. In prior years, the
OCIO served as chairman of the SSA Information Technology Advisory Board, which
was responsible for IT investment management. During this time, OCIO conducted only
limited post-implementation reviews 22 and did not have a process in place to define how
post-implementation reviews should be carried out. The Agency’s investment board
has been restructured to include OCIO oversight of both the IT acquisition budget and
the IT administrative budget under a newly formed investment board called the Strategic
20
     SSA OIG’s June 2009 report, Electronic File Assembly (A-07-09-19069).
21
  The Clinger-Cohen Act of 1996, 40 U.S.C. § 1401 et seq. assigns overall responsibility for the
acquisition and management of IT to the Director of OMB. It also gives the authority to acquire IT
resources to the head of each executive agency and makes them responsible for effectively managing
their IT investments (Pub. L. No. 104-106, Division E, Title LI).
22
     Per the Agency, the OCIO has only conducted post-implementation reviews for iClaims and ePulling.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                  7
IT Assessment and Review (SITAR) Board. The SITAR will be responsible for
investment management reporting, cost-benefit analysis guidance and support, and IT
performance measurement and post-implementation reviews. The new governing
process of the SITAR reflects the OCIO’s desire to better align SSA’s technology
investments with the agency’s strategic priorities.

SSA’s AVAILABLE ADMINISTRATIVE FUNDS FOR WORKLOADS AND ITS
INVESTMENTS

According to SSA’s FY 2010 Annual Performance Plan, the Agency has a commitment
to reduce the disability backlog, improve the quality of the disability process, improve
service, and preserve the public’s trust in SSA’s programs. The Annual Performance
Plan indicates that to maintain this commitment, additional resources are needed to
fund the Agency’s workload.

Early in the budget process, the Agency has the opportunity to make different decisions
to ensure administrative funds are available to provide the most cost-effective use of
resources for the Agency’s growing workload, rather than transfer funds to the no-year
LAE ITS appropriation at the end of the FY. In the last 10 years, SSA has left
approximately 1.5 percent of the annual LAE appropriation unobligated at the end of
each FY, and approximately 1.7 percent unobligated in the last 29 years (see
Appendix D for percentages). Before the Social Security Online Accounting and
Reporting System (SSOARS), 23 the Agency had lapsed as low as 0.3 percent in
FY 1989 and 0.7 percent in FY 1992 of the annual LAE appropriation. Since SSOARS
went into production in FY 2004, SSA has lapsed at least 1 percent per year.

To illustrate, SSA can use $25 million of the current FY annual unobligated LAE funds
to improve the integrity and/or service levels of the Agency. For FYs 2004 through
2008, substantial unobligated funds would still have remained to be transferred to ITS
(see Table 1 for illustration of $25 million being applied to workloads). Table 4 presents
examples of SSA workloads that can benefit from the use of unobligated LAE funds, to
protect the integrity of the Social Security programs, improve service, and reduce its
disability backlog.




23
  SSOARS became SSA’s accounting system of record when it went into production on October 1, 2003.
SSOARS reports the financial results of SSA activities, provides financial information for management for
use in preparing the administrative budget, and provides information to properly control SSA's assets.
SSOARS receives input from SSA Headquarters, field offices, vendors, State agencies, General Services
Administration and Department of Treasury. SSOARS is integrated with other systems and has on-line
query capabilities.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                8
                                                      Table 4:
         Illustrations of Workloads That Could Benefit from the Use of Unobligated LAE Funds
                          Description of           Cost Associated     Benefit of Using Administrative Funds
     Workload               Workload                with Workload                 Toward Workload
Program Integrity     CDRs are periodic            SSA estimates       Recent SSA estimates indicate that CDRs
Workloads –           reevaluations to             each full medical   yield roughly $12 in lifetime program
                                                                                                       25
Continuing            determine whether            CDR costs           savings for every dollar spent.
                                                           24
Disability Reviews    disability beneficiaries     $1,000.             Therefore, if the $25 million of unobligated
(CDR)                 are still disabled.                              administrative funds had been used
                      CDRs review medical                              toward the CDR workload in a year,
                      eligibility factors for DI                       approximately 25,000 CDRs could have
                      and SSI disability                               been completed and provide a potential
                      beneficiaries.                                   lifetime benefit savings of up to
                                                                       $300 million. Therefore, up to $1.5 billion
                                                                       lifetime benefit savings could result if SSA
                                                                       performs 25,000 CDRs each year over a
                                                                                       26
                                                                       5-year period.
Program Integrity     Redeterminations             For 2009, Cost      SSA estimates that SSI redeterminations
Workloads –           ensure that SSI              Per                 yield $8 in lifetime program savings for
Redeterminations      recipients are               Redetermination     every $1 spent. Therefore, if the
                      receiving the correct        is approximately    $25 million of unobligated administrative
                                                         27
                      payment amount               $142.               funds had been used toward the
                      based on non-medical                             redetermination workload in a year, the
                      factors of eligibility.                          Agency could have achieved a potential
                                                                       lifetime benefit savings of up to
                                                                       $200 million. Therefore, up to $1 billion in
                                                                       lifetime benefit savings could result if SSA
                                                                       uses $25 million for redeterminations
                                                                                                         28
                                                                       each year over a 5-year period.

24
  We obtained the full cost of a medical CDR from the OQP Website,
http://quality.ba.ad.ssa.gov/hq/DAAG/cdrModels/cdrModelsBackground.html.
25
  For FY 2008, SSA estimated that the CDR process yielded an average savings-to-cost ratio of
$12.3 to $1. The Agency calculates this by dividing the estimated present value of total lifetime benefits
saved with respect to CDR cessations, $3.8 billion (including OASDI, SSI, Medicare and Medicaid
savings), by the $307 million spent on periodic CDRs in FY 2008.
26
  According to the Agency, SSA expects year-to-year fluctuations in the savings-to-cost ratio to occur
because of changes in the distribution of CDRs processed by program and the percentage of cases
where there is a high likelihood of medical improvement. Therefore, while it is not likely that the lifetime
benefit savings would be $1.5 billion for CDRs worked over the 5-year period described here, the savings
could conceivably be up to $1.5 billion.

27
  SSA, OIG, Supplemental Security Income Redeterminations (A-07-09-29146), issued July 2009,
provides an in-depth review of redeterminations and calculation of cost per redetermination.
28
    According to the Agency, SSA is more likely to have worked the redetermination cases expected to be
the most cost effective first; therefore, the return on investment for the cases worked with the additional
funding may not earn the same level of lifetime benefit savings. Consequently, it is not likely that the
lifetime benefit savings would be $1 billion, although the savings could conceivably be up to $1 billion.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                      9
                                                    Table 4:
         Illustrations of Workloads That Could Benefit from the Use of Unobligated LAE Funds
                          Description of        Cost Associated        Benefit of Using Administrative Funds
     Workload               Workload             with Workload                    Toward Workload
Disability            According to SSA,         According to           If the $25 million of unobligated
Workload (DI and      disability workloads      SSA, the overall       administrative funds was used to process
SSI)                  have grown                cost per case to       disability workloads, the Agency could
                      significantly over the    process initial        have potentially processed approximately
                      past 5 years and will     disability claims      49,000 additional disability cases per
                      continue to increase      in the disability      year. A rough estimate of the additional
                      substantially because     determination          initial claims that could be processed over
                                                                                                     30
                      of the current            services (DDS)         a 5-year period is 245,000. This would
                                                                  29
                      economic conditions       would be $511.         essentially assist the Agency in reducing
                      and baby boomers                                 the disability backlog.
                      reaching their
                      disability-prone years.




FISCAL YEAR 2010 LAE TRANSFERS

Prior to the issuance of our final report, SSA informed the OIG that $280 million was
transferred in August 2010 from unobligated prior-year 1-year LAE accounts to the ITS
no-year account. The transferred LAE funds represent unobligated balances in FYs
2005 through 2009. The Agency provided documentation to support this transfer;
however, we did not validate this information.




29
  The $511 figure is the actual experienced FY 2009 cost-per-case and reflects the average cost to
process a disability claim in the DDSs. This cost-per-case includes payroll, indirect, medical, postage,
and other costs.
30
  The rough estimate of 245,000 additional initial disability cases per year was derived by dividing the
$25 million of unobligated funds by $511 (the DDS FY 2009 overall cost-per-case), resulting in
approximately 49,000 additional claims that could be processed each year. The 5-year estimate was
derived by multiplying 5 times the 49,000 claims that could be processed in 1 year.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                                   10
                                   Matters for Consideration
Each year, the Agency transfers unobligated administrative funds to the ITS no-year
account. There is no documentation of the return on investment of the amounts
transferred to the ITS no-year account. In any of those years, the Agency could have
obligated additional funds to complete more CDRs and/or redeterminations, thereby
generating tangible program savings. Alternatively, the Agency could use the funds to
process additional disability workloads. Given the increased workload demands facing
the Agency, careful consideration should be given to using unobligated funds for these
program integrity and disability service activities.

We recognize that the Agency is pursuing IT projects that are intended to increase
productivity. We support the transfer of LAE funds as long as the return on investment
of the transfer is equal to benefits that are achieved for existing workloads that have had
a high rate of return. Therefore the Agency should have a process in place that ensures
the amount available to transfer to ITS is the absolute minimum with a goal to process
workloads that have a proven positive return on investment.

AGENCY COMMENTS

The Agency provided comments to the OIG on this report (see Appendix E). We have
responded to the Agency’s comments and made changes to the report as appropriate.
The OIG’s response is in Appendix F.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Information Technology Systems Commitments and Obligations
APPENDIX D – Unobligated Balances at Year-End
APPENDIX E – Agency Comments
APPENDIX F – OIG Response to Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)
                                                                           Appendix A

Acronyms
    CDR                Continuing Disability Review

    DDS                Disability Determination Services

    DI                 Disability Insurance

    DOWS               District Office Work Sampling

    FY                 Fiscal Year

    GAO                Government Accountability Office

    IT                 Information Technology

    ITS                Information Technology Systems

    LAE                Limitation on Administrative Expenses

    OCIO               Office of the Chief Information Officer

    OIG                Office of the Inspector General

    OMB                Office of Management and Budget

    OQP                Office of Quality Performance

    Pub. L. No.        Public Law Number

    SITAR              Strategic IT Assessment and Review

    SSA                Social Security Administration

    SSI                Supplemental Security Income

    SSOARS             Social Security Online Accounting and Reporting System

    TAS                Time Allocation System

    TSRP               Telephone Systems Replacement Project

    U.S.C.             United States Code




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)
                                                                           Appendix B

Scope and Methodology
To complete the objectives of our review, we:

    •   Reviewed applicable laws, audit reports, and pertinent parts of the Social
        Security Administration (SSA) Accounting Manual related to Limitation on
        Administrative Expenses (LAE).

    •   Reviewed SSA’s annual continuing disability review (CDR) Reports to Congress
        and Office of Quality Performance Website information to obtain the
          o savings-to-cost ratio of CDRs and
          o cost to perform a CDR.

    •   Reviewed SSA’s annual Performance and Accountability Report to obtain the
          o savings-to-cost ratio of CDRs and
          o savings-to-cost ratio of redeterminations.

    •   Interviewed personnel from SSA’s Office of Finance to obtain
          o LAE’s unobligated funds;
          o LAE’s obligated funds; and
          o LAE ITS transfers, including carryovers and recoveries.

    •   Interviewed personnel from SSA’s Offices of the Deputy Commissioner for
        Systems and Chief Information Officer to obtain
          o role in the LAE Information Technology Systems (ITS) budget process;
          o role in the Information Technology Advisory Board; and
          o examples of ITS investments.

    •   Interviewed personnel from SSA’s Office of Budget to obtain the ITS budget
        process.

    •   Calculated cost and savings of additional funds put toward the LAE
        administrative workload.

The entity reviewed was SSA’s Office of Budget. Our work was conducted at SSA
Headquarters in Baltimore, Maryland, from November 2009 through April 2010. We
determined that the data used in this report were sufficiently reliable given the review
objective and their intended use. We conducted our review in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)
                                                                                     Appendix C

Information Technology Systems Commitments
and Obligations
For Fiscal Years 2004 through 2008, the Social Security Administration had a total of
$2,913 1 million available for information technology investment; however, of that
amount, $2,845 million was obligated for Information Technology Systems (ITS)
investment. The table below depicts the obligated funds for ITS investment projects
during Fiscal Years 2004 through 2008.

                                                                                 2
                         ITS Commitments/Obligations (as of Fiscal Year End)
                                             ($ in millions)
                             2004         2005         2006          2007            2008        Totals
    ITS Current Fiscal       $410         $453         $458          $481            $535        $2,337
       Year Annual
      Appropriation
       ITS No-Year            $11         $137          $76          $148            $136         $508
      Appropriation
         Totals              $421         $590         $534          $629            $671        $2,845




1
 According to the Report on the Status of Funds for LAE ITS as of Fiscal Year End (Excludes
Reimbursable Activity), the Agency was allowed $424 million, $625 million, $548 million, $640 million, and
$676 million funds for Fiscal Years 2004 through 2008, respectively, for a total of $2,913 million.
2
 Obtained from Report on the Status of Funds, LAE ITS (Excludes Reimbursable Activity) As of Fiscal
Years Ending 2004, 2005, 2006, 2007, and 2008.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)
                                                                                   Appendix D

Unobligated Balances at Year-End
The unobligated balance remaining at year-end represents the amount of LAE annual
funds that have not been spent. The unobligated (or lapsed) funds are either
transferred to ITS or remain in the annual appropriation account until it is closed.

                                                                                        1
               Table 1: Lapse Percentage of LAE Appropriation by Fiscal Year (FY)
                                                  Unobligated Balance as      Obligated Balance
               Annual            Unobligated          a Percentage of        as a Percentage of
    FY
           Appropriation      Balance, Available       Appropriation              the Annual
                                                                     2
              Received         (as of Year End)      (Lapse Percent)           Appropriation
1980       $2,354,100,000.00      $28,801,000.00           1.2%                     98.8%
1981       $2,763,550,000.00      $51,459,751.00           1.9%                     98.1%
1982       $2,982,973,000.00      $54,763,329.00           1.8%                     98.2%
1983       $3,408,451,000.00     $106,544,000.00           3.1%                     96.9%
1984       $3,423,861,000.00      $89,644,433.00           2.6%                     97.4%
1985       $3,787,515,000.00     $167,226,000.00           4.4%                     95.6%
1986       $3,809,547,000.00      $49,099,704.00           1.3%                     98.7%
1987       $3,614,602,000.00      $79,071,705.00           2.2%                     97.8%
1988       $3,584,114,000.00      $16,908,415.00           0.5%                     99.5%
1989       $3,554,457,440.00      $10,775,963.00           0.3%                     99.7%
1990       $3,837,389,000.00      $23,146,719.00           0.6%                     99.4%
1991       $4,157,309,000.00      $89,570,284.00           2.2%                     97.8%
1992       $4,550,450,000.00      $31,589,749.00           0.7%                     99.3%
1993       $4,813,100,584.00      $44,241,429.00           0.9%                     99.1%
1994       $5,194,285,000.00      $57,434,420.00           1.1%                     98.9%
1995       $5,404,037,756.00      $70,460,796.00           1.3%                     98.7%
1996       $5,647,074,000.00     $113,537,310.00           2.0%                     98.0%
1997       $5,872,737,000.00     $205,083,109.00           3.5%                     96.5%
1998       $5,894,040,000.00     $105,480,180.00           1.8%                     98.2%
1999       $5,988,019,000.00     $147,590,093.00           2.5%                     97.5%
2000       $6,111,871,000.00     $145,640,316.32           2.4%                     97.6%
2001       $6,583,000,000.00      $97,203,519.30           1.5%                     98.5%
2002       $7,092,334,796.00      $67,158,444.26           0.9%                     99.1%
2003       $7,846,011,791.00      $62,346,620.87           0.8%                     99.2%
2004       $8,268,571,956.00      $90,741,455.51           1.1%                     98.9%
2005       $8,681,040,136.00     $175,776,355.96           2.0%                     98.0%
2006       $9,055,821,000.00      $92,804,969.01           1.0%                     99.0%
2007       $9,241,228,811.00     $118,572,872.63           1.3%                     98.7%
2008       $9,712,645,935.00     $118,666,885.76           1.2%                     98.8%


1
 For most years illustrated, information was obtained from the Standard Form 133 – Report on Budget
Execution and Budgetary Resources for FYs 1981 through 2008. For FYs 1980, 1983, and 1985 we
obtained information from the Justification of Appropriation Estimates for Committee on Appropriation.
For FY 1984, we obtained information from the Financial Indicator Report.

2
 The unobligated balance as a percentage of appropriation is calculated by dividing the unobligated
balance, available at year-end by the annual appropriation.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                              D-1
We determined the average percentage of unobligated and obligated balances at year
end over 5, 10, and 29 years. 3 The calculation is as follows:

         Table 2: Average Percentage of Unobligated and Obligated Annual LAE Funds
                                                     Unobligated Balance Obligated Balance
                                                      as a Percentage of   as a Percentage of
                    Description
                                                         Appropriation         the Annual
                                                        (Lapse Percent)      Appropriation
Average Percentage Over 29 Years (1980 - 2008)               1.7%                98.3%
Average Percentage Over 10 Years (1999 - 2008)               1.5%                98.5%
Average Percentage Over 5 Years (2004 - 2008)                1.3%                98.7%




3
  The average percentage of unobligated and obligated balances at year end over 5, 10, and 29 years
was calculated by adding the unobligated balances for the sum total and dividing by the number of years.
For example, FYs 2004 through 2008 had a sum of 6.7 percent of unobligated balances as a percentage
of the appropriation. This was divided by 5 years to equal 1.3 percent.


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                             D-2
                                                                                Appendix E

Agency Comments
From: Hall, Stephanie
Sent: Wednesday, July 28, 2010 1:41 PM
To: Schaeffer, Steve
Subject: OIG Draft Quick Response Evaluation: SSA's Use of Limitation on Administrative Expenses
Funds - Audit #22010063



Note to Steve Schaeffer

Steve,

Thank you for the opportunity to review the draft quick response evaluation report on this
subject. We have attached our comments on the report.

If your staff have any questions, please contact Candace Skurnik on extension 54636.

Stephanie Hall
Assistant Deputy Commissioner
for Budget, Finance and Management




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                           E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
“QUICK RESPONSE EVALUATION: SOCIAL SECURITY ADMINISTRATION’S USE
OF LIMITATION ON ADMINISTRATIVE EXPENSES FUNDS” (A-15-10-21085)

Thank you for the opportunity to review the subject report. We offer the following comments.

General Comments

On page 1 you state: “The objective of this evaluation was to review aspects of the Social
Security Administration’s (SSA) use of its available administrative funds.”

This is a rather broad objective, but you present essentially two major themes in the report
concerning the way we spend our Limitation on Administrative Expenses (LAE) dollars. First,
you suggest that we could have used LAE funding more effectively by financing additional
workloads and doing more program integrity work – i.e., continuing disability reviews (CDR)
and disability redeterminations. Second, you state that where we have spent LAE dollars on
Information Technology Systems’ (ITS) projects, those projects have not always yielded positive
returns on investments and that we must improve oversight of our investments. We address your
two major points below.

Effective Use of LAE Funding

You state on page 2 of the report:

“Public Law surrounding the Agency’s annual administrative expenses appropriation provides
that … unobligated balances of funds provided at the end of each fiscal year not needed for the
current fiscal year shall remain available until expended to invest in the Social Security
Administration information technology and telecommunications hardware and software
infrastructure. This provision allows for the transfer of millions of dollars from the current FY
annual LAE appropriation to the no-year appropriated Information Technology System (ITS)
funds for non-payroll automation and telecommunications investment costs.”

Comment

This language has been included in our annual LAE appropriation for several years, but it does
not automatically authorize us to transfer funds to ITS, nor to spend those funds. We must
justify our plans for doing so with the Office of Management and Budget (OMB), and we may
only transfer and spend money to the extent that OMB has given us its formal approval through
the apportionment process. OMB makes its decisions after examining our entire ITS budget and
reviewing our submissions of the Agency’s IT Investment Portfolio (Exhibit 53s – required by
OMB Circular No. A-11), and the Capital Asset Plan and Business Case Summary
(Exhibit 300 – also required by OMB No. A-11).

Transfer authority does not increase the ITS budget. To the contrary, it decreases the amount of
current year funding we need to implement the approved budget plan. We explicitly depend on
both transfer authority and current year IT funding to maintain our operating capabilities and to



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                        E-2
invest in the future. Recent investments such as iClaim and the Retirement Estimator are
examples where we successfully implemented new processes that paved the way for enhancing
our internet presence, improving service to the public, and conserving field office resources.

Page 3, 2nd paragraph reads:

“Based on our review of SSA’s transfer of unobligated annual funds, investment in ITS, and
available administrative funds for SSA workloads and ITS investments, the Agency had the
opportunity to use more of its annual LAE funds to reduce the disability backlog and invest in
program integrity workloads and thereby reduce the amounts of transferred unobligated
balances.”

Comment

Above this paragraph in “Table 1,” you illustrate how we could have used $25 million more in
each of five prior fiscal years to process additional disability and program integrity workloads.
Your example is completely arbitrary. We have focused intently on disability workloads and
honored our commitment to Congress and the American public to make disability processing a
top priority. This year alone we reassessed our LAE resources and approved the hiring of 900
new employees, virtually all for front-line positions in field offices. We targeted many of these
additional resources to our most stressed offices.

Throughout the report and in the “Matters for Consideration,” you make statements such as “the
Agency could have obligated additional funds” during a current year and processed more
disability and program integrity workloads. We disagree with your after the fact
oversimplification of the appropriation process. We have never intentionally lapsed funding for
the purpose of eventually transferring money to ITS. Each year, we obligate about 99 percent of
our LAE appropriation. Given the inevitability of legitimate increases to prior year obligations,
it is neither a sound nor common fiduciary practice to obligate an entire current fiscal year
appropriation. You, yourself, exercise the same sound practice of allowing approximately
1 percent of OIG appropriated funds to lapse each year.

There are many challenges to effectively utilizing LAE funds, and routinely, prolonged
continuing resolutions (CR) contribute to those challenges. We consistently operate under a CR
at the beginning of each year and often do not receive an appropriation until more than one-
fourth of a fiscal year has elapsed. This necessarily drives the date of funds availability into later
quarters. Nevertheless, when we finally receive our appropriations, we allocate nearly all annual
LAE funds to components based on their estimated needs. In addition, we review, re-evaluate,
and if needed, reallocate funds a minimum of three times a year. We compare hiring to
component plans, re-price payroll costs, and re-evaluate other objects expenditures during this
process.

To maximize our use of funding, we recently developed a Current Year Spending Report that
reflects spending rates for payroll, other objects, and staffing. We analyze the data, investigate
trends, and reallocate funds where necessary. In conjunction with this, local managers and
analysts regularly monitor workload reports to make sure we are on track to meet or exceed



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                           E-3
budgeted workload goals; this includes work processed, work pending, productivity, and
processing time targets. Workload performance goals include targeted funding for our program
integrity workloads. Our Office of Budget meets monthly with components and shares
information on the status of current and future fiscal year budgets.

Each year, we redistribute funds amongst components based on emerging programmatic
priorities. At the same time we consider the longer-term impact of funding commitments for
subsequent fiscal years. Your $25 million per year example fails to consider our actual
experience in planning and executing our budget and, therefore, your example does not improve
our budget process. For example, you do not consider the long-term implications of hiring
additional staff to handle disability cases and program integrity workloads; hiring that might
result in exponentially greater costs for the yet-to-be determined budgets in the future. In
addition, you do not take into account that we have a limited amount of physical space, and we
may not be able to house more staff in our field offices.

Page 3 – Table 1

Comment

You should make it clear that once a fiscal year has ended, single year appropriated funds may
not be used to finance future years’ activity. As discussed, the Congress expressly provided that,
with OMB approval, unused funds transfer to a “no-year” ITS account. We cannot use these
funds for any other purpose. Throughout the report, you discuss how we might have used prior
year funds to process workloads. A reader may infer from your words that today, we could use
prior year funds for that purpose. We cannot as appropriation law forbids it. We suggest you
include an explanation that once a year has closed, funds appropriated in that year are no longer
available for new spending. This relates specifically to Table 1 on page 3 (shown below)

                                              Table 1
                            LAE ITS Transfers and Remaining Funds
                     After Assumed $25 Million Used to Process Workloads
                                          ($ in millions)
                                Remaining                                        Minimum Amount
             Actual Amount       Amount             Total     Assume $25         Still Available to
             Transferred to    Available for      Amount      Million Used        Transfer to ITS
            ITS from Annual      Transfer       Available for       for           Assuming $25
               LAE (As of         (As of          LAE ITS      Workloads          Million Used for
   (FY)        9/30/2009)       9/30/2009         Transfer     Each Year            Workloads
  2004                  $136              $5             $141           $(25)                   $116
  2005                  $236             $43             $279           $(25)                   $254
  2006                   $96             $51             $147           $(25)                   $122
  2007                   $60             $85             $145           $(25)                   $120
  2008                     $0          $130              $130           $(25)                   $105
  Total                 $528           $314              $842         $(125)                    $717

This presentation is misleading. It gives the reader an impression that amounts reflected in the
fourth column of the report were available for spending during each of the related fiscal years.
This was not the case. For example, FY 2004 shows $141 million available for transfer. While
it is technically accurate that $141 million was ultimately available for transfer, that full amount


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                         E-4
was not available on the last day of FY 2004. In fact, at September 30, 2004, only $91 million
went unspent, and at that point in time only $91 million at a maximum was considered available
for that fiscal year. The additional $50 million in recoveries did not accrue until after the close
of FY 2004. For example, reimbursable work authorizations to the General Service
Administration may be subsequently cancelled.

By law, after the close of the fiscal year, we cannot spend our annual appropriations.
Specifically, after September 30, 2004, neither that $50 million nor the $91 million could ever be
used to finance workloads. The total $141 million was available only for transfer to the ITS
account with OMB approval.

The following exhibits the amounts available at the close of each fiscal year. We contrast those
balances with the numbers presented in your Table 1

                                         ($ in Millions)
                                    Balance          Total
                                    Available       Balance
                                   When the FY Available
                          FY         Ended         (Table 1)     Difference
                         2004          $91           $141           $50
                         2005         $176           $279          $103
                         2006          $93           $147           $54
                         2007         $119           $145           $26
                         2008         $119           $130           $11
                         Total        $598           $842          $244

Additional Comment:

We recognize that significant dollars remained available at the end of each fiscal. But as a
percentage of our overall budget, the numbers are small. As the table below shows, we typically
lapse just over one percent of our total LAE appropriation.

                                           ($ in Millions)
                                                                   %
                             FY      Appropriation    Lapsed     Lapsed
                            2004       $ 8,270         $ 91      1.10%
                            2005       $ 8,730         $176      2.02%
                            2006       $ 9,058         $ 93      1.03%
                            2007       $ 9,242         $119      1.29%
                            2008       $ 9,713         $119      1.23%




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                        E-5
BENEFITS OF INFORMATION TECHNOLOGY PROJECTS

Page 5, 2nd paragraph, 2nd and 3rd sentences read:

“However, resources used for ITS have not always provided a proven positive return on
investment to the Agency. Furthermore, the Agency has been unable to demonstrate that ITS
investments achieve their intended results and address the strategic goals, objectives, and mission
of the Agency, despite the continued significant ITS investment.”

Also, page 7, 6th sentence reads:

“During this time OCIO conducted only limited post-implementation reviews and did not have a
process in place to define how post-implementation reviews should be carried out.”

Comment

The “return on investment” and “post-implementation review” (PIR) themes dominate your
report. We believe this duplicates much of what you reported in a prior Quick Response
Evaluation (QRE) titled “The Social Security Administration’s Post-Implementation Review”
(A-14-10-30105) and provides no additional guidance to us. We commented on that report in
June 2010 and described plans for strengthening our PIR processes. In this current report, you
again assert that we are not able to determine our expected return on investments. While we
agree that we must improve IT investment management practices, we have already started to do
so. We are concerned that you paint a one-sided picture that does not fully reflect the findings in
your June report or the report of Government Accountability Office (GAO) which we also
discussed in our comments to you on June 10.

Page 5, SSA’s Investment in ITS

Comment:

In this section, you indicate that we have not been able to demonstrate that ITS investments have
achieved their intended results in addressing the strategic goals, objectives, and missions of the
agency. While you (see QRE A-14-10-30105) and GAO previously found that we could improve
our IT investment management processes, you do not state that you both also noted our
significant progress in this area. In addition, we have provided specific performance measures
and expected benefits for each major investment in every one of the Exhibit 300, Capital Asset
Plan and Business Case Summary, we have submitted to OMB. We published these performance
measures online at http://it.usaspending.gov/. While we agree that we have the opportunity to
make significant progress, and we remain committed to doing so, we do not agree with your
sweeping generalizations.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                       E-6
Page 6, 2nd Paragraph

Comment:

In reading this section, it appears you define return on investment as solely related to dollars, but
dollars are not necessarily the best measure for assessing the success of infrastructure and
operating investments. We have committed a majority of the ITS budget to those types of
investments, including the Telephone Systems Replacement Project (TSRP). You state that “the
Agency has spent $133 million on TSRP but was unable to show there was a return on
investment.” That statement is misleading. We were experiencing unacceptable failure rates
with field phone systems, and repairs were difficult and expensive because of the age and variety
of systems. Therefore, we implemented TSRP to update our technology, maintain telephone
service, and avoid costly investments to keep the old technology running.

With TSRP, we conducted a comprehensive alternatives analysis before we decided on an
approach. We did not develop a financial return on investment per se, but we can certainly
support a strong business case; and pending workloads would be much larger today without good
phone service in our hearing offices. Simply put, we decided which course to pursue, and we
managed the project successfully to obtain the benefits we expected.

Page 7, Table 3: Examples of Terminated ITS Projects

Comment:

This display seems to contradict your findings that we lack an oversight process for IT
investments. The table has descriptions of the terminated Time Allocation System (TAS) and
ePulling projects; but it also provides the reasons why we terminated those projects. We
presented these examples to you to demonstrate that we are performing oversight and to express
that we recognize when projects are unlikely to produce desirable returns on investments. Our
salient point is that we terminated the projects because they were not providing the expected
returns. In the case of ePulling, the technology was not viable for our purposes. In the case of
TAS, we were not able to take advantage of the new data provided by the system.

You do not make any specific point in mentioning the two projects in Table 3. Your information
is factual, but spurious. We do not claim that all of our projects succeed. Meaningful returns
must be assessed at a portfolio, or higher, level, except when we use them for oversight purposes.
To do otherwise would create significant disincentives to the managed risk taking we must
undertake to move the Agency forward.

Final Remark

You imply throughout the report that the only meaningful way to state anticipated benefits is
through a monetary return on investment. We do not agree with this notion. Had you asked us
why we pursued TSRP, ePulling, TAS, or any other ITS investment, we could have provided you
with our business case justification. You did not pose the question. In fact, as noted in “Scope
and Methodology,” the only information you sought concerned our roles in the budget process,



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                         E-7
our roles on the information technology advisory board (ITAB), and examples of ITS
investments.

We have acknowledged repeatedly that we need to improve our ability to forecast costs and
benefits and to follow up with actual measures once we deploy the investments. Sometimes this
will equate to a simple return on investment; more often, however, we will view it in the larger
context of contributions to the Agency’s mission. As indicated above, we remain committed to
improving our ability to track and report on a full range of performance measures for all of our
significant investments.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                     E-8
                                                                           Appendix F

OIG Response to Agency Comments
From: Schaeffer, Steve
Sent: Friday, August 13, 2010 10:39 AM
To: Gallagher, Michael HQ DCBFM
Subject: FW: Response to Comments - QRE: The SSA's Use of LAE (A-15-10-21085)

Michael,

Thank you for your recent comments on our QRE: The Social Security
Administration’s Use of Limitation on Administrative Expenses
(A-15-10-21085). We have modified the report accordingly and have attached
our response to your comments. Please contact us if you have any questions.

Thanks

Steven L. Schaeffer




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)           F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
“QUICK RESPONSE EVALUATION: SOCIAL SECURITY ADMINISTRATION’S USE
OF LIMITATION ON ADMINISTRATIVE EXPENSES FUNDS” (A-15-10-21085)

Thank you for the opportunity to review the subject report. We offer the following comments.

General Comments

On page 1 you state: “The objective of this evaluation was to review aspects of the Social
Security Administration’s (SSA) use of its available administrative funds.”

This is a rather broad objective, but you present essentially two major themes in the report
concerning the way we spend our Limitation on Administrative Expenses (LAE) dollars. First,
you suggest that we could have used LAE funding more effectively by financing additional
workloads and doing more program integrity work – i.e., continuing disability reviews (CDR)
and disability redeterminations. Second, you state that where we have spent LAE dollars on
Information Technology Systems’ (ITS) projects, those projects have not always yielded positive
returns on investments and that we must improve oversight of our investments. We address your
two major points below.

Effective Use of LAE Funding

You state on page 2 of the report:

“Public Law surrounding the Agency’s annual administrative expenses appropriation provides
that … unobligated balances of funds provided at the end of each fiscal year not needed for the
current fiscal year shall remain available until expended to invest in the Social Security
Administration information technology and telecommunications hardware and software
infrastructure. This provision allows for the transfer of millions of dollars from the current FY
annual LAE appropriation to the no-year appropriated Information Technology System (ITS)
funds for non-payroll automation and telecommunications investment costs.”

Comment

This language has been included in our annual LAE appropriation for several years, but it does
not automatically authorize us to transfer funds to ITS, nor to spend those funds. We must
justify our plans for doing so with the Office of Management and Budget (OMB), and we may
only transfer and spend money to the extent that OMB has given us its formal approval through
the apportionment process. OMB makes its decisions after examining our entire ITS budget and
reviewing our submissions of the Agency’s IT Investment Portfolio (Exhibit 53s – required by
OMB Circular No. A-11), and the Capital Asset Plan and Business Case Summary
(Exhibit 300 – also required by OMB No. A-11).

Transfer authority does not increase the ITS budget. To the contrary, it decreases the amount of
current year funding we need to implement the approved budget plan. We explicitly depend on
both transfer authority and current year IT funding to maintain our operating capabilities and to



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                       F-2
invest in the future. Recent investments such as iClaim and the Retirement Estimator are
examples where we successfully implemented new processes that paved the way for enhancing
our internet presence, improving service to the public, and conserving field office resources.

OIG Response to Agency Comments: We added a substantial portion of the language above to
page 4 of the report.

Page 3, 2nd paragraph reads:

“Based on our review of SSA’s transfer of unobligated annual funds, investment in ITS, and
available administrative funds for SSA workloads and ITS investments, the Agency had the
opportunity to use more of its annual LAE funds to reduce the disability backlog and invest in
program integrity workloads and thereby reduce the amounts of transferred unobligated
balances.”

Comment

Above this paragraph in “Table 1,” you illustrate how we could have used $25 million more in
each of five prior fiscal years to process additional disability and program integrity workloads.
Your example is completely arbitrary. We have focused intently on disability workloads and
honored our commitment to Congress and the American public to make disability processing a
top priority. This year alone we reassessed our LAE resources and approved the hiring of 900
new employees, virtually all for front-line positions in field offices. We targeted many of these
additional resources to our most stressed offices.

Throughout the report and in the “Matters for Consideration,” you make statements such as “the
Agency could have obligated additional funds” during a current year and processed more
disability and program integrity workloads. We disagree with your after the fact
oversimplification of the appropriation process. We have never intentionally lapsed funding for
the purpose of eventually transferring money to ITS. Each year, we obligate about 99 percent of
our LAE appropriation. Given the inevitability of legitimate increases to prior year obligations,
it is neither a sound nor common fiduciary practice to obligate an entire current fiscal year
appropriation. You, yourself, exercise the same sound practice of allowing approximately
1 percent of OIG appropriated funds to lapse each year.

There are many challenges to effectively utilizing LAE funds, and routinely, prolonged
continuing resolutions (CR) contribute to those challenges. We consistently operate under a CR
at the beginning of each year and often do not receive an appropriation until more than one-
fourth of a fiscal year has elapsed. This necessarily drives the date of funds availability into later
quarters. Nevertheless, when we finally receive our appropriations, we allocate nearly all annual
LAE funds to components based on their estimated needs. In addition, we review, re-evaluate,
and if needed, reallocate funds a minimum of three times a year. We compare hiring to
component plans, re-price payroll costs, and re-evaluate other objects expenditures during this
process.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                          F-3
To maximize our use of funding, we recently developed a Current Year Spending Report that
reflects spending rates for payroll, other objects, and staffing. We analyze the data, investigate
trends, and reallocate funds where necessary. In conjunction with this, local managers and
analysts regularly monitor workload reports to make sure we are on track to meet or exceed
budgeted workload goals; this includes work processed, work pending, productivity, and
processing time targets. Workload performance goals include targeted funding for our program
integrity workloads. Our Office of Budget meets monthly with components and shares
information on the status of current and future fiscal year budgets.

Each year, we redistribute funds amongst components based on emerging programmatic
priorities. At the same time we consider the longer-term impact of funding commitments for
subsequent fiscal years. Your $25 million per year example fails to consider our actual
experience in planning and executing our budget and, therefore, your example does not improve
our budget process. For example, you do not consider the long-term implications of hiring
additional staff to handle disability cases and program integrity workloads; hiring that might
result in exponentially greater costs for the yet-to-be determined budgets in the future. In
addition, you do not take into account that we have a limited amount of physical space, and we
may not be able to house more staff in our field offices.

OIG Response to Agency Comments: Per feedback received from the Office of Budget, we
updated Table 4 on page 11 with the cost-per-case for disability workloads including payroll and
other costs.

Page 3 – Table 1

Comment

You should make it clear that once a fiscal year has ended, single year appropriated funds may
not be used to finance future years’ activity. As discussed, the Congress expressly provided that,
with OMB approval, unused funds transfer to a “no-year” ITS account. We cannot use these
funds for any other purpose. Throughout the report, you discuss how we might have used prior
year funds to process workloads. A reader may infer from your words that today, we could use
prior year funds for that purpose. We cannot as appropriation law forbids it. We suggest you
include an explanation that once a year has closed, funds appropriated in that year are no longer
available for new spending. This relates specifically to Table 1 on page 3 (shown below)




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                        F-4
                                              Table 1
                            LAE ITS Transfers and Remaining Funds
                     After Assumed $25 Million Used to Process Workloads
                                          ($ in millions)
                                Remaining                                       Minimum Amount
             Actual Amount       Amount             Total     Assume $25        Still Available to
             Transferred to    Available for      Amount      Million Used       Transfer to ITS
            ITS from Annual      Transfer       Available for       for          Assuming $25
               LAE (As of         (As of          LAE ITS      Workloads         Million Used for
   (FY)        9/30/2009)       9/30/2009         Transfer     Each Year           Workloads
  2004                  $136              $5             $141           $(25)                  $116
  2005                  $236             $43             $279           $(25)                  $254
  2006                   $96             $51             $147           $(25)                  $122
  2007                   $60             $85             $145           $(25)                  $120
  2008                     $0          $130              $130           $(25)                  $105
  Total                 $528           $314              $842         $(125)                   $717

This presentation is misleading. It gives the reader an impression that amounts reflected in the
fourth column of the report were available for spending during each of the related fiscal years.
This was not the case. For example, FY 2004 shows $141 million available for transfer. While
it is technically accurate that $141 million was ultimately available for transfer, that full amount
was not available on the last day of FY 2004. In fact, at September 30, 2004, only $91 million
went unspent, and at that point in time only $91 million at a maximum was considered available
for that fiscal year. The additional $50 million in recoveries did not accrue until after the close
of FY 2004. For example, reimbursable work authorizations to the General Service
Administration may be subsequently cancelled.

By law, after the close of the fiscal year, we cannot spend our annual appropriations.
Specifically, after September 30, 2004, neither that $50 million nor the $91 million could ever be
used to finance workloads. The total $141 million was available only for transfer to the ITS
account with OMB approval.

The following exhibits the amounts available at the close of each fiscal year. We contrast those
balances with the numbers presented in your Table 1

                                        ($ in Millions)
                                   Balance          Total
                                   Available       Balance
                                  When the FY Available
                          FY        Ended         (Table 1)       Difference
                         2004         $91           $141             $50
                         2005        $176           $279            $103
                         2006         $93           $147             $54
                         2007        $119           $145             $26
                         2008        $119           $130             $11
                         Total       $598           $842            $244




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                         F-5
OIG Response to Agency Comments: We updated language in the report on page 3, footnote
#10 to include “The amount would be obligated during the FY and consequently decrease the
unobligated amount available for transfer at the end of each FY” to provide a clear understanding
that the $25 million would be obligated prior to close of each fiscal year.

Additionally, we updated Table 1 on page 3 to include the “Balance Available When the FY
Ended” column and a footnote to clarify (see footnote #8).

Additional Comment:

We recognize that significant dollars remained available at the end of each fiscal. But as a
percentage of our overall budget, the numbers are small. As the table below shows, we typically
lapse just over one percent of our total LAE appropriation.

                                           ($ in Millions)
                                                                  %
                             FY      Appropriation    Lapsed    Lapsed
                            2004       $ 8,270         $ 91     1.10%
                            2005       $ 8,730         $176     2.02%
                            2006       $ 9,058         $ 93     1.03%
                            2007       $ 9,242         $119     1.29%
                            2008       $ 9,713         $119     1.23%

OIG Response to Agency Comments: We updated language on page 9, 2nd paragraph and
added an appendix with the historical information of the obligated and unobligated LAE
appropriation using the data obtained from the Office of Finance.

BENEFITS OF INFORMATION TECHNOLOGY PROJECTS

Page 5, 2nd paragraph, 2nd and 3rd sentences read:

“However, resources used for ITS have not always provided a proven positive return on
investment to the Agency. Furthermore, the Agency has been unable to demonstrate that ITS
investments achieve their intended results and address the strategic goals, objectives, and mission
of the Agency, despite the continued significant ITS investment.”

Also, page 7, 6th sentence reads:

“During this time OCIO conducted only limited post-implementation reviews and did not have a
process in place to define how post-implementation reviews should be carried out.”

Comment

The “return on investment” and “post-implementation review” (PIR) themes dominate your
report. We believe this duplicates much of what you reported in a prior Quick Response
Evaluation (QRE) titled “The Social Security Administration’s Post-Implementation Review”


SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                       F-6
(A-14-10-30105) and provides no additional guidance to us. We commented on that report in
June 2010 and described plans for strengthening our PIR processes. In this current report, you
again assert that we are not able to determine our expected return on investments. While we
agree that we must improve IT investment management practices, we have already started to do
so. We are concerned that you paint a one-sided picture that does not fully reflect the findings in
your June report or the report of Government Accountability Office (GAO) which we also
discussed in our comments to you on June 10.

OIG Response to Agency Comments: As previously stated on page 8, footnote #20, “Per the
Agency, the OCIO has only conducted post-implementation reviews for iClaims and ePulling.”
Additionally, on the top of page 9, we reference the new SITAR process.

Page 5, SSA’s Investment in ITS

Comment:

In this section, you indicate that we have not been able to demonstrate that ITS investments have
achieved their intended results in addressing the strategic goals, objectives, and missions of the
agency. While you (see QRE A-14-10-30105) and GAO previously found that we could improve
our IT investment management processes, you do not state that you both also noted our
significant progress in this area. In addition, we have provided specific performance measures
and expected benefits for each major investment in every one of the Exhibit 300, Capital Asset
Plan and Business Case Summary, we have submitted to OMB. We published these performance
measures online at http://it.usaspending.gov/. While we agree that we have the opportunity to
make significant progress, and we remain committed to doing so, we do not agree with your
sweeping generalizations.

OIG Response to Agency Comments: See comment above.

Page 6, 2nd Paragraph

Comment:

In reading this section, it appears you define return on investment as solely related to dollars, but
dollars are not necessarily the best measure for assessing the success of infrastructure and
operating investments. We have committed a majority of the ITS budget to those types of
investments, including the Telephone Systems Replacement Project (TSRP). You state that “the
Agency has spent $133 million on TSRP but was unable to show there was a return on
investment.” That statement is misleading. We were experiencing unacceptable failure rates
with field phone systems, and repairs were difficult and expensive because of the age and variety
of systems. Therefore, we implemented TSRP to update our technology, maintain telephone
service, and avoid costly investments to keep the old technology running.

With TSRP, we conducted a comprehensive alternatives analysis before we decided on an
approach. We did not develop a financial return on investment per se, but we can certainly
support a strong business case; and pending workloads would be much larger today without good



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                         F-7
phone service in our hearing offices. Simply put, we decided which course to pursue, and we
managed the project successfully to obtain the benefits we expected.

OIG Response to Agency Comments: We updated the language on page 7, 2nd paragraph to
explain that while we asked for the information, SSA was not able to provide data on their
“financial returns on IT investments with a comparison of actual and expected results.”

Page 7, Table 3: Examples of Terminated ITS Projects

Comment:

This display seems to contradict your findings that we lack an oversight process for IT
investments. The table has descriptions of the terminated Time Allocation System (TAS) and
ePulling projects; but it also provides the reasons why we terminated those projects. We
presented these examples to you to demonstrate that we are performing oversight and to express
that we recognize when projects are unlikely to produce desirable returns on investments. Our
salient point is that we terminated the projects because they were not providing the expected
returns. In the case of ePulling, the technology was not viable for our purposes. In the case of
TAS, we were not able to take advantage of the new data provided by the system.

You do not make any specific point in mentioning the two projects in Table 3. Your information
is factual, but spurious. We do not claim that all of our projects succeed. Meaningful returns
must be assessed at a portfolio, or higher, level, except when we use them for oversight purposes.
To do otherwise would create significant disincentives to the managed risk taking we must
undertake to move the Agency forward.

OIG Response to Agency Comments: None

Final Remark

You imply throughout the report that the only meaningful way to state anticipated benefits is
through a monetary return on investment. We do not agree with this notion. Had you asked us
why we pursued TSRP, ePulling, TAS, or any other ITS investment, we could have provided you
with our business case justification. You did not pose the question. In fact, as noted in “Scope
and Methodology,” the only information you sought concerned our roles in the budget process,
our roles on the information technology advisory board (ITAB), and examples of ITS
investments.

We have acknowledged repeatedly that we need to improve our ability to forecast costs and
benefits and to follow up with actual measures once we deploy the investments. Sometimes this
will equate to a simple return on investment; more often, however, we will view it in the larger
context of contributions to the Agency’s mission. As indicated above, we remain committed to
improving our ability to track and report on a full range of performance measures for all of our
significant investments.

OIG Response to Agency Comments: None



SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)                      F-8
                                                                           Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Victoria Vetter, Director, Financial Audit Division
       Deborah Kinsey, Audit Manager

Acknowledgments
In addition to those named above:

       Yvasne Simmons, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-10-21085.




SSA’s Use of Limitation on Administrative Expenses Funds (A-15-10-21085)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
